April 14, 2020

Sara Kobak

Admitted in Oregon
T: 503-796-3735
C: 503-413-0586
skobak@schwabe.com

VIA ELECTRONIC FILING
AND OVERNIGHT DELIVERY
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: No. 19-1166, Dine Citizens Against Ruining Our Environment, et al. v.
Bureau of Indian Affairs, et al.
Dear Mr. Harris:
We represent respondent Navajo Transitional Energy Company (NTEC) in
the above-captioned matter.
The petition for a writ of certiorari in this matter was filed and placed on the
docket on March 24, 2020. NTEC’s response currently is due on April 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an
extension of time of 42 days, up to and including June 4, 2020, within which to file
NTEC’s response. We have conferred with counsel for petitioner about this
request, and petitioner consents to this requested extension.
This extension is requested because of difficulties related to COVID-19.
NTEC, a tribal entity of the Navajo Nation, has implemented emergency measures
to respond to the severe impact of the COVID-19 pandemic within the Navajo
Nation. Because of NTEC’s necessary focus on issues related to COVID-19 and
on maintaining essential services during this crisis, additional time is needed for
NTEC to provide input on the response. In addition, because of work disruptions,
closures of schools, and loss of childcare assistance related to COVID-19, counsel
also require additional time to prepare the response.

Pacwest Center | 1211 SW 5th | Suite 1900 | Portland, OR | 97204 | M 503.222.9981 | F 503.796.2900 | schwabe.com

The Honorable Scott S. Harris
April 14, 2020
Page 2
As noted, petitioner does not oppose this request.
Sincerely,
/s/ Sara Kobak
Sara Kobak

cc: See Attached Service List

schwabe.com

The Honorable Scott S. Harris
April 14, 2020
Page 3
Counsel for Petitioners:
Sarah E. Harrington
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Avenue, Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com
Counsel for Federal Respondents:
Noel J. Francisco
Solicitor General
UNITED STATES DEPARTMENT
OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 29530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Rachel E. Heron
UNITED STATES DEPARTMENT OF JUSTICE
ENVIRONMENT & NATURAL RESOURCES
DIVISION
P.O. Box 7415
Ben Franklin Station
Washington, DC 20044-7415
(202) 514-0916
rachel.heron@usdoj.gov

Counsel for Respondent Arizona Public Service Co.:
Stacey L. VanBelleghem
Claudia M. O’Brien
Roman Martinez
Devin M. O’Connor
LATHAM & WATKINS LLP
555 Eleventh Street, NW, Suite 1000
Washington, DC 20004-1304
(202) 637-2200
stacey.vanbelleghem@lw.com
claudia.o’brien@lw.com
roman.martinez@lw.com
devin.o’connor@lw.coms
PDX\130242\236569\SK\27737994.1

schwabe.com

